                                              U.S. Department of Agriculture
                                               Office of Inspector General
                                                 Washington, D.C. 20250




DATE:                 September 10, 2010

REPLY TO
ATTN OF:              27703-02-Hy (2)

TO:                   Julie Paradis
                      Administrator
                      Food and Nutrition Service

ATTN:                 Katherine Day
                      Director
                      Office of Internal Controls, Audits and Investigations

FROM:                 Gil H. Harden /s/ Rod DeSmet (for)
                      Assistant Inspector General
                          for Audit

SUBJECT:              State Fraud Detection Efforts for the Supplemental Nutrition Assistance
                      Program – Use of EBT Management Reports


The American Recovery and Reinvestment Act of 20091 (Recovery Act) provided the
Department of Agriculture (USDA) with $28 billion in funding. Of this amount, $19.8 billion
was specifically allotted to the Food and Nutrition Service (FNS) to fund the 13.6 percent
increase in benefits to participants in the Supplemental Nutrition Assistance Program (SNAP).2
Congress, in enacting the Recovery Act, emphasized the need for accountability and
transparency in the expenditure of funds. Further, on February 18, 2009, the Office of
Management and Budget (OMB) issued initial guidance that required Federal agencies to
establish rigorous internal controls, oversight mechanisms, and other approaches to meet the
accountability objectives of the Recovery Act.3 OMB issued additional guidance on
April 3, 2009, to clarify existing requirements and establish additional steps that must be taken to
facilitate the accountability and transparency objectives of the Recovery Act. Moreover, OMB
emphasized that due to the unique implementation risks of the Recovery Act, agencies must take
steps beyond standard practice to initiate the additional oversight mechanisms.4

SNAP provides nutrition assistance to approximately 40 million low-income individuals and
families by supplementing their incomes with benefits to purchase food they need for healthy
eating choices. FNS administers SNAP through a Federal-State partnership by which the Federal
Government pays the full cost of recipient benefits, while the cost of administering the program

1
  Public Law 111-5, February 17, 2009.
2
  The potential amount of benefits to be funded through the Recovery Act increased when estimates were prepared for the fiscal year (FY) 2011
budget. According to FNS, the Recovery Act funding for SNAP is now estimated to total $65.8 billion through FY 2019.
3
  Office of Management and Budget Memorandum M-09-10.
4
  Office of Management and Budget Memorandum M-09-15.
is shared with the States. Further, States distribute recipient benefits through an Electronic
Benefits Transfer (EBT) system, in which the recipient authorizes the transfer of benefits from a
Federal account to a retailer account to pay for products purchased. With regard to overall
controls, SNAP regulations specify functional areas to be addressed by each State, but do not
establish a standardized system of internal control at the State level. FNS’ policy is to allow
States the flexibility to establish control systems that meet the individual needs of each State.
The States have the primary responsibility for monitoring recipients’ compliance with program
requirements, along with detecting and investigating cases of alleged intentional program
violation.5 However, States are not responsible for monitoring program compliance by
participating retailers; this function is performed by FNS’ Compliance Branch.

The objectives of this audit are to assess FNS’ oversight of State agencies’ efforts to identify
recipients fraudulently using their SNAP benefits, and to determine whether Recovery Act funds
are expended in a manner that minimizes the risk of improper use. This is the second report to
document the results of our assessment of FNS’ oversight of the States’ fraud detection units,
and describes the need for FNS to provide guidance and oversight to States for the proactive use
of EBT management reports in detecting and investigating cases of potential fraud. To
accomplish our objectives, we conducted fieldwork at the FNS national office, the
FNS Mid-Atlantic Regional Office, and the FNS Southeast Regional Office. Additionally, we
visited the State offices in Florida and New Jersey, as well as five county offices in New Jersey.
We conducted interviews with pertinent FNS and State officials, reviewed program regulations,
analyzed EBT management reports, and assessed program policies, procedures, and internal
controls relating to SNAP.

According to Federal regulations,6 each State is required to obtain EBT management reports
from their contracted EBT processors. These reports are intended to assist the States with
program management, operations, and performance. Additionally, each State can request the
EBT processor to provide reports specifically designed to assist in detecting potentially
fraudulent activities by SNAP recipients. In December 2007, the FNS national office issued
guidance7 to the States related to their use of EBT management reports. However, this guidance
did not include specific requirements as to how the State fraud detection units could make use of
these reports to strengthen their fraud detection efforts. Further, they had not issued guidance on
which reports could potentially be useful to various States, based on such factors as their
organizational structure (e.g. centralized or county-based),8 or on the experiences of USDA
investigative entities, such as the Office of Inspector General – Office of Investigations or
FNS’ Compliance Branch.




5
  An intentional program violation is defined as any act violating the Food and Nutrition Act of 2008, SNAP regulations, or any State statute
for the purpose of using, presenting, transferring, acquiring or receiving, possessing, or trafficking authorized EBT cards. This definition
includes any act that constitutes making a false or misleading statement or concealing or withholding facts.
6
  Title 7 C.F.R. 274.12(j)(2), January 1, 2009.
7
  Electronic Benefits Transfer Request for Proposal (RFP) Guidance, December 19, 2007.
8
  Each State has the option to administer SNAP operations on either a Statewide or county-level basis. States that elect to administer their SNAP
operations at the county level, act as oversight at the State level.


Audit Report 27703-02-Hy (2)                                                                                                                    2
Although the States obtained the management reports, we found that neither State used the
reports provided by their EBT processor to identify potentially fraudulent activities by SNAP
recipients for investigation or other followup. Both FNS and State officials attributed this to the
fact that FNS had not specifically required the States to use these reports. Officials at both levels
noted that there are other tools, such as hotline complaints and referrals from outside sources,
to assist the State fraud detection units in identifying potentially fraudulent activities by SNAP
recipients. FNS officials consider the use of these reports to be another tool that could allow
State fraud detection units the ability to conduct proactive operations to detect the deliberate
misuse of SNAP benefits by recipients on an ongoing basis.

Our review of the EBT management reports from New Jersey and Florida disclosed several
instances of questionable transactions that may indicate weak controls or potential recipient
misuse of SNAP benefits. In total, we reviewed 18 EBT management reports between the two
States, 5 reports in Florida, and 13 reports in New Jersey. In particular, we noted that six of the
reports11 detected a significant number of questionable transactions that could be indicative of
fraudulent activity by recipients and/or retailers. Using these six reports, we identified a total of
2,634 questionable transactions, totaling over $181,700. Our review of these six reports covered
the period from August 2009 to October 2009.12 The following are examples of our results:

     ·     The Out-of-State Activity Report identifies SNAP recipients who redeem the majority, if
           not all, of their benefits at retailers located outside the State in which they reside. Federal
           requirements13 allow a recipient to move out of State without reporting an address
           change; however, the Out-of-State Activity Report could be a useful tool for identifying
           recipients who might be receiving benefits in another State. In New Jersey, we identified
           312 questionable Out-of-State transactions, totaling approximately $14,900 for 1 month.
           In Florida, we identified 1,934 questionable Out-of-State transactions in excess of
           $83,000 for 1 month.14

     ·     The Even-Dollar Transaction Report identifies unusual numbers of approved even-dollar
           SNAP transactions at specific retailer locations; these could be indicative of fraudulent
           activities, since retail transactions are typically not in whole dollar amounts. Our review
           of this report for New Jersey disclosed 196 questionable transactions, totaling
           approximately $65,600 for 1 month. We were unable to review this management report
           in Florida because State officials had not considered the report useful and had instructed
           the EBT processor not to provide it.




9
  New Jersey has contracted its EBT services to Affiliated Computer Services, while Florida has contracted its EBT services to JP Morgan
Electronic Financial Services.
10
   The term “outside sources” refers to individuals such as private citizens, other State officials, and/or other investigative entities.
11
   Of the six reports we reviewed, four reports were of SNAP recipient transactions from New Jersey and the remaining two reports were from
Florida.
12
   The overall timeframe for our analysis covered 3 months unless otherwise noted. For some reports, we analyzed 1 month of data because of
the complex design and format of the management reports.
13
   Simplified reporting requirements under the Farm Security and Rural Investment Act of 2002, Public Law 107-171, enacted May 13, 2002.
14
   When compiling this information, we eliminated Out-of-State participants who lived in areas adjacent to the State lines and might reasonably
have made SNAP purchases in either New Jersey or Florida.


Audit Report 27703-02-Hy (2)                                                                                                                      3
     ·     The Excessive Return Transaction Report identifies transactions, in excess of thresholds15
           established by the States, which involve refunds by retailers to SNAP recipients. Its
           purpose is to identify instances where refund transactions may be used to conceal the
           discounting of SNAP benefits for cash. In New Jersey, our analysis of this report
           disclosed 192 questionable excessive return transactions, totaling approximately $18,200.
           We were unable to review this management report for the State of Florida because State
           officials had not requested this report to monitor recipient SNAP transactions.

     ·     The Manual Transaction Report identifies all activity where retailers manually enter
           SNAP recipients’ EBT card numbers into point-of-sale terminals.16 This management
           report is used to detect potentially fraudulent activities between a retailer and recipient
           where a large number of manual entries are processed by the retailer. Our review of this
           report in New Jersey disclosed 122 retailers that processed more than 400 manual
           transactions during the month of our review, totaling over $4.4 million. These
           transactions represented 49 percent of these retailers’ total SNAP transactions for the
           month. Our review in Florida disclosed another 15 retailers whose manual transactions
           totaled over $155,000 for the month of our review.

We referred the questionable transactions to State officials in New Jersey and Florida for
followup. At the time of our report, we had not received feedback from either State regarding
these questionable transactions. However, during our site visit, New Jersey officials indicated
that these reports, as designed, were time-consuming and ineffective in detecting the intentional
misuse of SNAP benefits by recipients. We concluded that their concerns could be largely
addressed by redesigning the reports to reflect data for individual counties - where the State’s
fraud detection units are based - rather than on a Statewide basis. Additionally, State officials in
Florida had not utilized the management reports because they believed that their current process
for detecting fraudulent activities - which emphasized investigations of retailers in specific areas
of the State - was more effective.17 Although we concur that identifying fraudulent activities
committed by retailers can also lead to the investigation and prosecution of individual recipients,
we conclude that the State of Florida’s existing process does not provide an effective means of
identifying fraud in areas other than those selected for intensive retailer monitoring and
investigations. Further, Florida’s use of this process would not preclude the use of the
management reports, which could disclose potentially fraudulent activities by SNAP recipients at
a retailer location that they might not otherwise have targeted.

In prior OIG18and Government Accountability Office19 reports, EBT management reports were
cited as being useful in combating fraud within SNAP. Specifically, in June 2008, OIG’s report
on the State of Colorado’s EBT system disclosed that this State, much like New Jersey and
Florida, did not use the management reports being produced by its EBT processor to detect
fraudulent activities by SNAP recipients. By reviewing the available reports, which included the

15
   FNS officials stated retailers within each State cannot exceed processing of refunds beyond $200.
16
   A point-of-sale terminal is the equipment or system that is used to initiate electronic transactions from retailer locations.
17
   Florida focused their attention on 3 of 21 circuits known to be trafficking areas. Circuits are defined as a set of counties comingled together to
create individual sub-units of a regional area.
18
   Audit Report 27099-68-Hy, Electronic Benefits Transfer System State of Colorado, June 2008.
19
   GAO/RCED-00-61, Food Stamp Program, Better Use of Electronic Data Could Result in Disqualifying More Recipients Who Traffic
Benefits, March 2000.


Audit Report 27703-02-Hy (2)                                                                                                                        4
Out-of-State Activity report and the Even Dollar Transaction Report, we identified over $2
million in questionable transactions between April 2006 and September 2006. Furthermore, we
recommended that FNS require the Colorado State agency to strengthen its fraud detection
activities, including “the assignment of responsibilities to State and county staff for periodic
review and analysis of management reports to detect and follow up on suspicious and unusual
food stamp transactions.” FNS officials agreed with this recommendation, and required the
Colorado State agency to implement the recommendation. However, FNS did not extend this
requirement to other States.

Without a method of proactive enforcement towards recipients, the ability of FNS and the States
to ensure effective program integrity is reduced. We discussed this issue with FNS officials on
June 1, 2010. Although FNS officials agreed with our findings and recommendations as
presented, they contended that this issue pertains to their regular program operations and is not
directly related to the expenditure of Recovery Act funds; therefore, they believed it should be
handled through their normal reporting process, and not presented on the Recovery.gov website.
Although we acknowledge the FNS officials’ concerns, we also note that the issue of recipient
fraud affects the increased SNAP funding provided under the Recovery Act, as well as the
agency’s normal SNAP funding; thus, it should be reported on the Recovery.gov website. Due
to the heightened expectations for accountability and transparency of the Recovery Act, it is the
agency’s responsibility to develop and implement additional measures beyond normal operations
to ensure program integrity.

We recommend that FNS:

   1. Provide guidance to States in identifying and assessing available EBT management
      reports to determine which could be most useful to each State’s fraud detection efforts.
   2. Require that States implement procedures for the periodic review and analysis of
      management reports to detect and follow up on suspicious and unusual SNAP
      transactions.

Please provide a written response to this letter within 5 days, outlining your corrective actions. If
you have any questions, please contact me at (202) 720-6945, or have a member of your staff
contact Theresa Bulla, Director, Food and Marketing Division, at (202) 720-5907.




Audit Report 27703-02-Hy (2)                                                                       5
                               USDA’S




           FOOD AND NUTRITION SERVICE




             RESPONSE TO AUDIT REPORT




Audit Report 27703-02-Hy (2)            6
                                                                        September 22, 2010
United States
Department of
Agriculture
                 TO:         Gil H. Harden
Food and                     Assistant Inspector General
Nutrition                    for Audit
Service

3101 Park        SUBJECT: Food and Nutrition Service (FNS) Response to the Office of Inspector
Center Drive
                          General (OIG) American Recovery and Reinvestment Act of 2009 (ARRA)
Alexandria, VA            Fast Report on Use of EBT Management Reports (OIG Audit No. 27703-2-
22302-1500
                          HY)


                 The purpose of this memorandum is to respond to the Office of Inspector General’s
                 (OIG) Fast Report regarding State Fraud Detection Efforts for the Supplemental Nutrition
                 Assistance Program (SNAP) – Use of EBT Management Reports, dated September 10,
                 2010. FNS supports OIG’s objectives to ensure State agencies (SAs) are identifying
                 recipients fraudulently using their SNAP benefits, and to determine whether Recovery
                 Act funds are expended in a manner that minimizes the risk of improper use.

                 OIG’s Fast Report asserts that, without a method of proactive enforcement towards
                 recipients, the ability of FNS and the States to ensure effective program integrity is
                 reduced. The report recommends that FNS:

                        1.      Provide guidance to States in identifying and assessing available EBT
                                management reports to determine which could be most useful to each
                                State’s fraud detection efforts; and
                        2.      Require that States implement procedures for the periodic review and
                                analysis of management reports to detect and follow up on suspicious and
                                unusual SNAP transactions.

                 The audit recommendations above address an area that largely involves State prerogatives
                 and resources. Specifically, States are required by Program regulations to pursue for
                 potential legal remedies all activities which are identified as being potentially fraudulent.
                 States have a number of reports and systems to assist them in this endeavor, but the
                 process is time consuming and expensive. As a result, States must make determinations
                 on whether to pursue trafficking/fraud cases based on those cases that are most likely to
                 result in convictions. To do this, States have a variety of reports and other sources of
                 information available to them upon which such decisions are based. FNS believes that
                 requiring a specific report or method for this purpose may not necessarily result in more
                 convictions/disqualifications or in a more efficient process, and that there is no
                 documentation in the OIG report which would support this conclusion.

                 It is important to note here that the audit team looked at only two States, Florida and New
                 Jersey. There is nothing in the audit report which would indicate that this limited
                 experience is applicable nationwide. As such, FNS believes it is not prudent to mandate



                                        AN EQUAL OPPORTUNITY EMPLOYER
new Program requirements nationally based on local findings. We would encourage the
audit team to expand their work to include other States to determine whether requiring States
to use specific EBT management reports would have an appreciable impact on fraud
determinations and subsequent convictions and disqualifications.

In response to the report findings and recommendations, FNS will encourage all States to use
EBT management reports to determine which could be useful in detecting and following up
on suspicious SNAP transactions. Additionally, FNS will implement procedures, where
appropriate, for the periodic review and analysis of such reports for this purpose.

If you would like to further discuss our position regarding your Fast Report, please contact
the Program office at 703-305-2022.




Jessica Shahin /S/
Associate Administrator
Supplemental Nutrition Assistance Program

cc: Jessica Shahin, SNAP
    Laura Griffin, SNAP
    Jane Duffield, SNAP
    Katherine Day, FM
    Mark Porter, GFPD

FNS: FM: GFPD:MPorter:9/22/10
File: OIG Fast Report Response-EBT Management Reports




                          AN EQUAL OPPORTUNITY EMPLOYER
